                                                       ADVISORY




RECOVERY OVERSIGHT ADVISORY
Review of Significant Cost Increases to Recovery Act
Projects




Report No.: ROO-ROA-MOA-1023-2010                      January 2011
                   OFFICE OF
                   INSPECTOR GENERAL
                   U.S.DEPARTMENT OF THE INTERIOR
                                                                                                              JAN 1 9 2011

Memorandum

To:                 Chris Henderson
                    Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:
                    ~~~:~'I~~r                                 Recovery Oversight

Subject:            Recovery Oversight Advisory - Review of Significant Cost Increases to Recovery
                    Act Projects
                    Report No. ROO-ROA-MOA-1023-2010

         This advisory informs you of our efforts to review significant cost increases of American
Recovery and Reinvestment Act of 2009 (Recovery Act) projects and is part of our ongoing
efforts to oversee and ensure the accountability of funding appropriated to the U.S. Department
of the Interior (DOl) in the Recovery Act. For the majority of projects we reviewed, cost
estimates increased as a result of appropriate scope changes that took place after the projects
were approved for Recovery Act funding and prior to their award. We encountered a number of
discrepancies in project postings to the Government portal FedBizOpps (FBO) likely
complicating the ability of commercial vendors to learn more about Recovery Act projects. To
promote transparency, we encourage the bureaus to be cautious when project costs increase to
avoid the appearance of making out-of-scope changes to contracts, and we stress the importance
of full and consistent acquisition data input.

Background

        We identified nine high-dollar Recovery Act contract projects ($2 million or more) on the
April 2010 project list with revised cost increases ranging from 60 percent to 235 percent (see
Table 1).1 We then determined why these significant cost increases occurred and if they were
adequately justified and properly documented. We researched FBO for information on each
project, contacted contracting officials to obtain relevant project documentation, and conducted
project reviews utilizing an abbreviated checklist adapted from Departmental guidance defining
Recovery Act acquisition review plan requirements.2




1We identified a tenth project within the scope of our review, but omitted it after learning it is under a separate review.
2 " Departmentof the Interior Guidance Release ARRA-2009-01 , Amendment I, Attachment 2 - American Recovery and
Reinvestment (ARRA) Checklist - Contract Actions," August II , 2009.



                                          Recovery Oversight Office I Washington. DC
Findings

          1. Reasons for Increased Cost Estimates

         We learned that for five of the projects reviewed, cost estimates increased as a result of
appropriate scope changes stemming primarily from combining projects and/or additional design
and planning activities that took place after projects were approved for Recovery Act funding,
but prior to their award. Two Bureau of Reclamation (USBR) projects, a National Park Service
(NPS) project, and a U.S. Geological Survey (USGS) project recorded cost increases due to other
factors.

        For the Folsom Dam Wheel Gate Refurbishing project, USBR received bids considerably
higher than the original Government cost estimate, which necessitated increasing the cost
estimate from $3.2 million to $8.5 million. The scope of USBR’s Klamath River project
increased significantly after a U.S. Department of Justice ruling mandated that two previously
separate agreements must be considered together for the environmental analysis. The contractor
stabilizing Fort Jefferson at Dry Tortugas National Park, off the coast of Florida, discovered a
differing site condition, which further increased the cost of that project. 3 Finally, for the USGS
Building Addition at the Upper Midwest Environmental Sciences Center in La Crosse,
Wisconsin Recovery Act dollars were redirected from a smaller, related project to cover the full
construction cost in order to avoid comingling funds with the Working Capital Fund.

          2. Project Reviews

         Using an abbreviated project review checklist for contract actions adapted from
Departmental guidance, we reviewed FBO postings for accuracy and completeness, determined
if the actions had been recorded in the Federal Procurement Data System-Next Generation
(FPDS-NG), and ensured that the contractors receiving Recovery Act awards had current
registrations in the Central Contractor Registration (CCR) and were not listed in the Excluded
Parties List System (EPLS). For projects with multiple awards, we focused on the largest
contract action. In addition, we confirmed with project officials that, where applicable, the
project cost changes were vetted through each bureau’s established governance process.

       At the time of our review, some portion of each project had been awarded with the
exception of the Bureau of Indian Affairs (BIA) project for the Kaibeto Boarding School. We
found that each contract action had been recorded in FPDS-NG, and we confirmed that awardees
had current registrations in the CCR and were not listed in the EPLS.

        We encountered difficulties finding information on projects in FBO, the government
point of entry for commercial vendors interested in doing business with the Federal government.
Projects had multiple postings and varying titles complicating our search efforts. While we were
able to identify pre-solicitation and award postings for each project, we found a number of
omissions in the announcements including missing project descriptions, awardees’ DUNS

3
  Recovery Act funds were used for the initial modification to the project last year, when a differing site condition was discovered
on Front 4 (ROO-RM-NPS-6003-2009 Review of the NPS Fort Jefferson Project). According to the contracting officer, similar
yet more severe conditions were discovered when work began on Front 6, which required additional modifications to the project.

                                                                                                                                  2
numbers, and Treasury Account Symbols – all of which were required fields according to
departmental guidance for Recovery Act contract actions. 4 Inconsistent postings coupled with
missing information may complicate the efforts of commercial vendors interested in learning
more about Recovery Act projects.

    We also discovered two instances where the amounts of Recovery Act awards were
overstated. An award announcement for a smaller task order under the NPS Hamilton Grange
project indicated an award for $453,715.23 for Interpretive Exhibit Planning, Design, and Pre-
production. After contacting the contract specialist for the project, we learned that only
$67,486.65 was actually Recovery Act money. Additionally, a DOI News Release issued July 26,
2010, announced a $20.9 million contract to Phoenix Marine Co. Inc. for repairs to the Ellis
Island Seawall. The FBO award announcement on May 7, 2010, the FPDS-NG entry for the
action, a DOI financial report, and calls to both park staff and Denver Service Center staff
confirmed that the actual price of the contract was only $18,274,884.

       We will post this advisory on our Web site (www.doioig.gov/recovery/) and on
Recovery.gov. No action or response is requested for this advisory. Information contained in this
advisory may also be included in our semiannual reports to Congress. We performed our work in
accordance with the Quality Standards for Inspections adopted by the Council of the Inspectors
General on Integrity and Efficiency. Please contact me if you have any questions.

cc:     Deputy Secretary, U.S. Department of the Interior
        Director, Office of Executive Secretariat and Regulatory Affairs
        Assistant Secretary – Policy, Management, and Budget
        Acting Director, Office of Financial Management
        Director, Office of Acquisition and Property Management
        Departmental GAO/ OIG Audit Liaison
        Audit Liaison, Office of the Secretary

Attachment




4
 “Department of the Interior Guidance Release ARRA-2009-01, Amendment 1, Attachment 2 – American Recovery and
Reinvestment (ARRA) Checklist – Contract Actions,” August 11, 2009.

                                                                                                                3
         Table 1


                               Original     Revised Project        Percent                                                                Review Findings
Bureau    Project Title                                                                  Reason for Cost Increase
                             Project Cost        Cost              Increase                                                          (Based on largest contract action)


                                                                                                                               The award for $4,875,000 to Enola
                                                                                                                               Contracting Services, Inc., was a
                                                                                   These cost increases are due to
                                                                                                                               modification to an existing contract. It
                                                                                   differing site conditions found on Front
         Stabilize Fort                                                                                                        was announced on December 21, 2009.
                             $2,200,000     $7,363,000                235          6 of Fort Jefferson. Recovery Act
NPS      Jefferson Phase 2                                                                                                     The pre-solicitation announcement
                                                                                   funds were used for modifications to
                                                                                                                               lacked the Treasury Account Symbol.
                                                                                   an existing contract.
                                                                                                                               The award announcement did not
                                                                                                                               include the contractor’s DUNS number.
                                                                                   The initial cost estimate for this multi-
                                                                                   component, multi-award project was
                                                                                   insufficient to cover the increased
                                                                                                                               The task order award for $4,234,234.85
         Klamath River                                                             scope after a Department of Justice
                                                                                                                               to CDM Federal Programs Corporation
         Sedimentation                                                             ruling determined that Klamath
                                                                                                                               was a task order to an already existing
USBR     Sampling/Analys     $4,000,000     $11,250,000               181          Hydroelectric Settlement Agreement
                                                                                                                               Indefinite Delivery Indefinite Quantity
         is for Potential                                                          and the Klamath Basin Restoration
                                                                                                                               contract and was announced on FBO on
         Dam Removal                                                               Agreement had to be considered
                                                                                                                               April 2, 2010.
                                                                                   together for the environmental
                                                                                   documentation and the Secretarial
                                                                                   Determination Overview Report.
                                                                                   According to a USBR official, USBR
                                                                                   received three contractor bids from
                                                                                   8(a) Small Disadvantaged Businesses
                                                                                   that were three times the Government
         Folsom Dam -                                                                                                          The award for $7,787,953 to Abide
                                                                                   Estimate. Project site conditions are
         Unit Fixed                                                                                                            International, Inc., was announced on
                                                                                   not fully known, and work entails
USBR     Wheel Gate          $3,200,000     $8,500,000                166                                                      FBO on March 5, 2010. The award
                                                                                   power outages that have to be
         Refurbishing                                                                                                          posting did not include a description of
                                                                                   strategically spaced out over a long
         (CVP)                                                                                                                 the required products or services.
                                                                                   period of time. A USBR official noted
                                                                                   that they underestimated how
                                                                                   contractors would calculate taking on
                                                                                   these risks as part of their bids.




                                                              Recovery Oversight Office | Washington, DC
                               Original     Revised Project   Percent                                                           Review Findings
Bureau     Project Title                                                       Reason for Cost Increase
                             Project Cost        Cost         Increase                                                     (Based on largest contract action)

         Construct K-8
         School - 276
         room academic                                                   The cost increased in order to complete
         building – 45                                                   the project at full scope using modular
         room residential                                                construction. In mid-May, the project
         including                                                       was changed to design-build                 The contract had not been awarded at
BIA                         $11,408,000     $28,621,118         151
         infrastructure,                                                 construction and transferred to U.S.        the time of our review.
         housing and                                                     Fish and Wildlife Service for award
         demolition                                                      over concerns about meeting Recovery
         (Kaibeto                                                        Act deadlines.
         Boarding
         School)
                                                                         The cost increase was due to additional
                                                                         3.6 miles of road, drainage repairs,
                                                                                                                     The award for $3,418,090 to APAC-
                                                                         design and construction supervision,
         Repave 5.5                                                                                                  Atlantic Inc., was announced on FBO
                                                                         and project management costs. The
         Miles of                                                                                                    on May 7, 2010. The award posting did
NPS                         $2,619,000      $4,903,000          87       road intersects two different park units.
         Heintooga Ridge                                                                                             not include a description of the required
                                                                         After initial field investigation and
         Road                                                                                                        products or services or the contractor’s
                                                                         design scoping process NPS decided to
                                                                                                                     DUNS number.
                                                                         design the entire road through both
                                                                         park units.
                                                                         The total project cost includes             The award for $5,179,125 to R.J.
                                                                         replacing a water tower ($2,288,000)        Jurowski Construction, Inc., was posted
                                                                         and construction of Segment “D”             on FBO on June 30, 2010. The Treasury
                                                                         ($3,091,000) to be funded by both           Account Symbol was missing on pre-
         Building
                                                                         Recovery Act and USGS Working               solicitation, solicitation, and award
USGS     Addition           $3,091,000      $5,151,000          67                                                   announcements on FBO, and in the
                                                                         Capital Fund dollars. To avoid
         Segment "D"
                                                                         comingling of funds, USGS redirected        FPDS-NG entry. The award posting
                                                                         $2,060,000 in Recovery Act Funds            did not include a description of the
                                                                         from the water tower project to cover       required products or services or the
                                                                         the full construction of Segment “D.”       contractor’s DUNS number.




                                                                                                                                                        2
                                Original     Revised Project   Percent                                                         Review Findings
Bureau     Project Title                                                        Reason for Cost Increase
                              Project Cost        Cost         Increase                                                   (Based on largest contract action)

                                                                                                                    The award for $12,682,255 to Flatiron
                                                                          The increase covers the cost of
         CVP, Delta                                                                                                 West, Inc., was announced on FBO on
                                                                          necessary site preparation, the cost of
         Division-Contra                                                                                            April 30, 2010. No issues were found
USBR                         $20,000,000     $33,000,000         65       which was inadvertently left off the
         Costa Rock                                                                                                 during the desk review. Site preparation
                                                                          initial proposal for Recovery Act
         Slough                                                                                                     work is being conducted through an
                                                                          funds.
                                                                                                                    $8.35 million cooperative agreement.
                                                                                                                    The award for $1,587,953 to Lumus
                                                                          The scope and cost of the project         Construction, Inc., was announced on
         Complete
                                                                          increased after planning and design to    FBO on May 11, 2010. The award
NPS      Rehabilitation of   $2,352,000      $3,860,000          64
                                                                          include enhanced interpretive elements    posting did not include a description of
         Hamilton Grange
                                                                          and completion of interior finishes.      the required products or services or the
                                                                                                                    contractor’s DUNS number.
         Stabilize Ellis                                                  NPS combined two Recovery Act             The award for $18,274,884 to Phoenix
         Island Seawall                                                   projects for the seawall and then         Marine Co. Inc., was announced on
NPS                          $17,283,000     $27,710,000         60
         (completion of                                                   revised the project estimate after        FBO on May 7, 2010. No issues were
         Phase 1)                                                         planning and design.                      found during desk review.




                                                                                                                                                       3
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
